    Audit Report




    OIG-08-010
    Audit of the Financial Management Service’s Fiscal Years 2007
    and 2006 Schedules of Non-Entity Government-Wide Cash
    November 15, 2007




    Office of
    Inspector General
    Department of the Treasury




0
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                November 15, 2007


             MEMORANDUM FOR KENNETH R. PAPAJ, COMMISSIONER
                            FINANCIAL MANAGEMENT SERVICE

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Financial Management Service’s
                                      Fiscal Years 2007 and 2006 Schedules of Non-Entity
                                      Government-wide Cash


             I am pleased to transmit the attached audited Financial Management Service’s
             (FMS) Fiscal Years (FY) 2007 and 2006 Schedules of Non-Entity Government-wide
             Cash (the Schedules). Under a contract monitored by the Office of Inspector
             General, Clifton Gunderson LLP, an independent certified public accounting firm,
             performed an audit of the Schedules of Non-Entity Government-wide Cash for
             FY 2007 and 2006. The contract required that the audit be performed in
             accordance with generally accepted government auditing standards; applicable
             provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
             Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
             Manual.

             The following reports, prepared by Clifton Gunderson LLP, are incorporated in the
             attachment:

                      •   Independent Auditor’s Report;
                      •   Independent Auditor’s Report on Internal Control; and
                      •   Independent Auditor’s Report on Compliance and Other Matters.

             In its audit of FMS’ Schedules, Clifton Gunderson LLP found:

                      •   the Schedules present fairly, in all material respects, the balance of
                          Non-Entity Government-wide Cash as of September 30, 2007 and 2006,
                          in conformity with accounting principles generally accepted in the United
                          States of America,
Page 2


        •   certain deficiencies in internal control over financial reporting that were
            considered collectively to be a significant deficiency 1 (described below),
            and

        •   no instances of reportable noncompliance with laws and regulations tested.

Clifton Gunderson LLP concluded that there were general control weaknesses that
did not effectively (1) ensure that an adequate entity-wide security management
program is in place; (2) prevent unauthorized access to programs and files that
control computer hardware and secure applications; or (3) prevent unauthorized
access to and disclosure of sensitive information. Collectively these information
security control issues indicate the lack of a fully effective entity-wide security
management program.

In connection with the contract, we reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on FMS’ Schedules or conclusions about the effectiveness of
internal control or compliance with laws and regulations. Clifton Gunderson LLP is
responsible for the attached auditor’s reports dated November 8, 2007 and the
conclusions expressed in the reports. However, our review disclosed no instances
where Clifton Gunderson LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Audit Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:     Kenneth E. Carfine
        Fiscal Assistant Secretary



1
  A significant deficiency is a control deficiency, or combination of control deficiencies, that adversely
affects FMS’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the schedule that is more than inconsequential will not be prevented
or detected.
U. S. DEPARTMENT OF THE TREASURY,

  FINANCIAL MANAGEMENT SERVICE

           Washington, DC


 INDEPENDENT AUDITOR’S REPORTS

   AND SCHEDULES OF NON-ENTITY

     GOVERNMENT-WIDE CASH


     September 30, 2007 and 2006
                                             TABLE OF CONTENTS




                                                                                                                     PAGE


INDEPENDENT AUDITOR’S REPORT ...................................................................................1


INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL .................................3


INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE

  AND OTHER MATTERS..........................................................................................................7


SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH .........................................8


NOTES TO THE SCHEDULES OF NON-ENTITY

 GOVERNMENT-WIDE CASH ................................................................................................9


ATTACHMENT – MANAGEMENT COMMENTS ...............................................................12

A1

                                Independent Auditor’s Report


To the Inspector General,
 U. S. Department of the Treasury and the

 Commissioner of the Financial Management Service



We have audited the accompanying Schedules of Non-Entity Government-wide Cash of the
U. S. Department of the Treasury’s Financial Management Service (FMS) as of September 30,
2007 and 2006. These schedules are the responsibility of FMS’ management. Our responsibility
is to express an opinion on these schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the schedule is free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
schedule. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall schedule presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the Schedules of Non-Entity Government-wide Cash referred to above present
fairly, in all material respects, the balance of Non-Entity Government-wide Cash managed by
FMS as of September 30, 2007 and 2006 in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2007, on our consideration of FMS’ internal control over financial reporting
relating to Non-Entity Government-wide Cash and on our tests of FMS’ compliance with certain
provisions of laws and regulations and other matters relating to Non-Entity Government-wide
Cash. The purpose of those reports is to describe the scope of our testing of internal control over




11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106
tel: 301­931­2050                                   1
fax: 301­931­1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC         h
financial reporting and compliance and the results of that testing and not to provide an opinion
on internal control over financial reporting or compliance. Those reports are an integral part of
our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.


a1
Calverton, Maryland
November 8, 2007




                                               2

A1

                           Independent Auditor’s Report on Internal Control


To the Inspector General,
 U. S. Department of the Treasury and the

 Commissioner of the Financial Management Service



We have audited the Schedule of Non-Entity Government-wide Cash (the schedule) of the U. S.
Department of the Treasury’s Financial Management Service (FMS), as of September 30, 2007,
and have issued our report thereon dated November 8, 2007. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and applicable provisions of Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements.

In planning and performing our audit, we considered FMS’ internal control over financial
reporting for Non-Entity Government-wide Cash as a basis for designing our auditing
procedures, we obtained an understanding of design effectiveness of internal controls,
determined whether they have been placed in operation, assessed control risk, and performed
tests of FMS’s controls for the purpose of expressing our opinion on the schedule and to comply
with OMB Bulletin No. 07-04, but not for the purpose of expressing an opinion on the
effectiveness of internal control over financial reporting. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982, such as those controls relevant to ensuring efficient operations. The objective of our
audit was not to provide assurance on internal control. Accordingly, we do not express an
opinion on the effectiveness of FMS’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider collectively to be a significant deficiency.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects FMS’s ability to initiate, authorize, record, process,
or report financial data reliably in accordance with generally accepted accounting principles such

11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106
tel: 301­931­2050                                      3
fax: 301­931­1710
www.cliftoncpa.com                    Offices in 17 states and Washington, DC        h
that there is more than a remote likelihood that a misstatement of the schedule that is more than
inconsequential will not be prevented or detected by the FMS’s internal control. We consider the
deficiencies described below to be collectively a significant deficiency in internal control over
financial reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the schedule will not be
prevented or detected by the FMS’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose
described in the second paragraph of this section and would not necessarily identify all
deficiencies in the internal control that might be significant deficiencies or material weaknesses;
however, we do not believe that the significant deficiency described below is a material
weakness.

Effectiveness of Computer Controls

FMS relies on extensive information technology (IT) systems to administer Government-wide
cash. Internal controls over these operations are essential to ensure the integrity, confidentiality,
and reliability of critical data while reducing the risk of errors, fraud and other illegal acts.

Our review of information technology controls covered general and selected application controls.
General controls are the structure, policies and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls, system
software controls, application software development and change controls, segregation of duties,
and service continuity controls. Application information security controls involve input,
processing, and output controls related to specific IT applications.

We performed a review of the computer controls at the Hyattsville Regional Operations Center
(HROC) and Kansas City Regional Operations Center using the Federal Information Systems
Controls Audit Manual. Our review included general and selected application control testing of
the Ca$hlink II, Treasury Offset Program (TOP), Government Wide Accounting (GWA) and
Secure Payment System (SPS) applications.

For several years there have been IT general controls weaknesses at FMS, and most recently it
was focused on the HROC. FMS continues to make progress and we commend FMS for the
effort and improvement in the IT controls environment. Our testing revealed that there are still
existing general control weaknesses that do not effectively (1) ensure that an adequate entity-
wide security management program is in place; (2) prevent unauthorized access to programs and
files that control computer hardware and secure applications; or (3) prevent unauthorized access
to and disclosure of sensitive information. Collectively these information security control issues
indicate the lack of a fully effective entity-wide security management program. Our detailed
findings and recommendations will be provided to management in a separate sensitive but
unclassified management report dated November 8, 2007. A summary of the key general
controls findings follows:




                                                 4

Entity-wide Security Management – An entity-wide program for security planning and
management represents the foundation for an entity’s security control structure and a reflection
of senior management’s commitment to addressing security risks. The program should establish
a framework and continuing cycle of activity for assessing risk, developing and implementing
effective security procedures, and monitoring the effectiveness of these procedures. Without a
well designed program, security controls may be inadequate; responsibilities may be unclear,
misunderstood, and improperly implemented; and controls may be inconsistently applied. Such
conditions may lead to insufficient protection of sensitive or critical resources and
disproportionately high expenditures for controls over low-risk resources. The true measure of an
Entity-wide Security Management Program is the ability to implement enhancements to the
controls environment entity-wide, on all existing systems and platforms in use. FMS has
demonstrated its ability to remediate specific IT findings. However, our current year audit
identified that while weaknesses were corrected in some systems and platforms, they still
continue to exist in other areas. This is evidenced by the continued existence of previously
identified problems in newly reviewed IT areas indicating a lack of consistent application of an
agency-wide strategy.

System Software – System software coordinates and helps control the input, processing, output,
and data storage associated with all of the applications that run on a system. System software
includes operating system software, system utilities, file maintenance software, security
software, data communications systems, and database management systems. Controls over
access to and modifications of system software are essential to protect the overall integrity and
reliability of information systems. Previously noted mainframe operating system support issues
were identified again this year.

Access Controls – Access controls are designed to limit or detect access to computer programs,
data, equipment, and facilities to protect these resources from unauthorized modification,
disclosure, loss, or impairment. Such controls include logical and physical security controls. A
comprehensive access control security program, including increased management oversight, is
needed to fully address the administration of access controls in order to increase the reliability of
computerized data and decrease the risk of destruction or inappropriate disclosure of data.
Although prior access control findings have been substantially addressed, additional access
control weaknesses were identified again this year.

Management Response and Our Comments

Management has responded to our report and the full response is included in the attachment to
this report. Management stated that they did not concur with our finding that FMS lacks
consistent application of an agency-wide strategy to remediate specific IT findings but
recognized that there are areas for improvements and agreed that they will take appropriate
corrective actions to address specific audit results.

We have carefully reviewed management’s response, however we have not changed our
conclusion that general controls weaknesses existed in access controls and system software, and
the continued existence of previously identified problems in newly reviewed IT areas is evident
of the lack of fully effective entity-wide security management. Further, we continue to conclude
that these weaknesses are a significant deficiency.


                                                 5

                       ***************************************


This report is intended solely for the information and use of the management of FMS, the
Department of the Treasury Office of Inspector General, OMB, the Government Accountability
Office and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
November 8, 2007




                                               6

A1

                 Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General,
 U. S. Department of the Treasury and the

 Commissioner of the Financial Management Service


We have audited the Schedule of Non-entity Government-wide Cash of the U. S. Department of
the Treasury’s Financial Management Service (FMS), as of September 30, 2007, and have issued
our report thereon dated November 8, 2007. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The management of FMS is responsible for complying with laws and regulations applicable to
Non-Entity Government-wide Cash. As part of obtaining reasonable assurance about whether
the Schedule of Non-Entity Government-wide Cash is free of material misstatement, we
performed tests of its compliance with certain provisions of laws and regulations, noncompliance
with which could have a direct and material effect on the determination of schedule amounts and
certain other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of
compliance to those provisions, and we did not test compliance with all laws and regulations
applicable to FMS.

The results of our tests of compliance disclosed no instances of noncompliance with the laws and
regulations described in the preceding paragraph or other matters that are required to be reported
under Government Auditing Standards and OMB Bulletin No. 07-04.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FMS, the
Department of the Treasury Office of Inspector General, the OMB, the Government
Accountability Office and Congress, and is not intended to be and should not be used by anyone
other than these specified parties.


a1
Calverton, Maryland
November 8, 2007


11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106
tel: 301­931­2050                                   7
fax: 301­931­1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC        h
                U. S. DEPARTMENT OF THE TREASURY,

                 FINANCIAL MANAGEMENT SERVICE

          SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH

                            (In Thousands)




                                                               September 30,
                                                        2007                   2006

Cash, foreign currency and other monetary
 assets (Notes 1 and 2)                           $     70,491,723      $      44,243,218




             The accompanying notes are an integral part of these schedules.

                                            8
                  U. S. DEPARTMENT OF THE TREASURY,

                   FINANCIAL MANAGEMENT SERVICE

      NOTES TO SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH

                          September 30, 2007 and 2006




NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity

The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
(Treasury). FMS’ mission is to improve the quality of the Federal Government’s financial
management. FMS’ commitment and responsibility is to help its customers achieve success.
FMS does this by linking program and financial management objectives and by providing
financial services, information, advice, and assistance to its customers. FMS serves taxpayers,
Treasury, federal program agencies, and government policy makers.

Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
operations. For example, FMS accounts for certain cash that the Federal Government collects
and holds on behalf of the U. S. Government or other entities. This schedule includes the
Non-Entity government-wide cash accounts.

Basis of Accounting

The standards used in the preparation of the accompanying schedule are issued by the Federal
Accounting Standards Advisory Board, as the body authorized to establish generally accepted
accounting principles for Federal Government entities. Accordingly, the accompanying
schedules are prepared in accordance with generally accepted accounting principles.

The accompanying schedule is different from the financial reports, prepared by FMS pursuant to
OMB directives that are used to monitor and control FMS’ use of budgetary resources.

Intra-governmental Financial Activities

The financial activities of FMS are affected by, and are dependent upon, those of the Treasury
and the Federal Government as a whole. Thus, the accompanying schedules do not reflect the
results of all financial decisions and activities applicable to FMS as if it were a stand-alone
entity.

Non-entity Government-wide Cash

The Treasury General Account (TGA) is maintained at the Federal Reserve Bank of New York
(FRBNY) and functions as the government’s checking account for deposit and disbursement of
public funds. Agencies can deposit funds that are submitted to them directly into either a Federal
Reserve TGA or a local TGA depositary. The balances in these TGA accounts are transferred to
the FRBNY’s TGA at the end of each day. The Treasury Tax and Loan (TT&L) program




                                                9

                    U. S. DEPARTMENT OF THE TREASURY, 

                     FINANCIAL MANAGEMENT SERVICE

        NOTES TO SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH

                            September 30, 2007 and 2006




NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (CONTINUED)

includes about 9,000 depositaries that accept tax payments and remit them the day after receipt to
FRBNY’s TGA. Certain TT&L depositaries also hold Non-entity Government-wide Cash in
interest bearing accounts. Cash in the TGA and the TT&L program is restricted for
Government-wide operations.

NOTE 2 – NON-ENTITY CASH, FOREIGN CURRENCY, AND OTHER MONETARY
ASSETS

Non-Entity Cash, Foreign Currency, and Other Monetary Assets include the Operating Cash of
the U.S. Government, managed by Treasury and foreign currency maintained by various
U. S. and military disbursing offices, at September 30, 2007 and 2006 as follows:

                                                                     September 30,
                                                              2007                   2006
Operating Cash of the U.S. Government:
 Held in Depositary Institutions                       $ 69,797,268          $ 46,676,384
 Held in the Federal Reserve Banks                        5,538,744             5,568,594
Subtotal                                                 75,336,012            52,244,978
Outstanding Checks                                       (5,634,828)           (8,657,616)
Subtotal                                                 69,701,184            43,587,362
Other Cash                                                  699,419               587,697
Subtotal                                                 70,400,603            44,175,059
Foreign Currency                                             91,120                68,159
Total                                                  $ 70,491,723          $ 44,243,218

Operating Cash of the U.S. Government represents balances from tax collections, customs duties,
other revenue, federal debt receipts, and other various receipts net of cash outflows for budget
outlays and other payments held in the Federal Reserve Banks, foreign and domestic financial
institutions, and in U. S. Treasury Tax and loan accounts. Checks outstanding are netted against
operating cash until they are cleared by the Federal Reserve System.

U. S. Treasury Tax and Loan Accounts include funds invested through the Term Investment
Option program and the Repo Pilot program. Under the Term Investment Option program
Treasury agrees that funds will remain in the account for the specified period of time. Under the
Repo Pilot program Treasury “guarantees” that invested funds will remain in the account for the
predetermined term of each investment. However, under both programs Treasury reserves the
right to call the funds prior to maturity under special circumstances. Other cash is mostly
comprised of Automated Clearinghouse transfers and other deferred items.




                                               10

                  U. S. DEPARTMENT OF THE TREASURY,

                   FINANCIAL MANAGEMENT SERVICE

      NOTES TO SCHEDULES OF NON-ENTITY GOVERNMENT-WIDE CASH

                          September 30, 2007 and 2006




NOTE 2 – NON-ENTITY CASH, FOREIGN CURRENCY, AND OTHER MONETARY
ASSETS (CONTINUED)

Operating Cash of the Federal Government held by depositary institutions is either insured (for
balances up to $100,000) by the Federal Deposit Insurance Corporation or collateralized by
securities pledged by the depositary institution, or through securities held under reverse
repurchase agreements.




               This information is an integral part of the accompanying schedules.

                                               11
ATTACHMENT





    12

